                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION

Office of Inspector General—Office of Audit




                                              CONSULTATION PROGRAM
                                              DOES NOT ENSURE WORKER SAFETY
                                              WHEN SERIOUS HAZARDS
                                              ARE NOT CORRECTED AS AGREED TO
                                              BY EMPLOYERS




                                                                         Date: September 4, 2007
                                                                Report Number: 05-07-001-10-105
                                                                    U.S. Department of Labor
BRIEFLY…                                                            Office of Inspector General
                                                                    Office of Audit
Highlights of Report Number 05-07-001-10-105,
Consultation Program Does Not Ensure Worker Safety                  WHAT OIG FOUND
When Serious Hazards Are Not Corrected As Agreed                    While we found that the Consultation Program identified and
To by Employers, to the Assistant Secretary for                     corrected 28,169 serious hazards in the three States we
Occupational Safety and Health, dated                               audited, we found two critical components of the program
September 2007.                                                     were not working as intended: 1) consultation program
                                                                    officials seldom ensured that interim protection was in place
                                                                    before granting employers’ requests for extensions to correct
WHY READ THE REPORT                                                 serious hazards, and 2) employers who did not timely
The Office of Inspector General (OIG) conducted a                   complete corrective actions were seldom referred for
performance audit of the resolution of serious workplace            enforcement action.
hazards identified by the Occupational Safety and Health
Administration’s (OSHA’s) Consultation Program. Targeted            In general, OSHA responded that OIG’s report is out of
primarily at small businesses, the Consultation Program is a        context since the majority of serious hazards were corrected
voluntary, free, and confidential service that allows employers     timely without extensions or the need for an enforcement
to learn about and correct potential hazards at their worksites     referral. OIG recognizes this; however, notwithstanding how
without the issuance of citations or penalties. OSHA requires       many serious hazards were corrected timely, those not
that consultation program officials explain to employers who        corrected timely left workers at risk. OSHA also asserted that
request to participate in the Program that if a serious hazard is   failure to ensure interim protection before extensions were
not timely corrected, the Consultation Program Manager will         granted relates to a lack of proper documentation.
immediately refer the situation for enforcement action.             Nevertheless, without documentation, OSHA cannot be
                                                                    assured that interim protection was provided.
OSHA administers and provides federal funding to States and
territories. OSHA staff monitors the program data on a              As a result of OSHA’s response, certain revisions were made
quarterly basis and conduct on-site visits at the States.           to the report, including tables, to clarify our findings and
Consultants, employed by a State or territory, perform the          recommendations.
employer consultations.
                                                                    WHAT OIG RECOMMENDED
The success of the Consultation Program is dependent on             We recommend that OSHA’s Assistant Secretary:
several key factors: identifying serious hazards, correcting            1. enforce the requirement that State consultation
them timely, ensuring interim protection is in place during the            program officials grant extensions to correct a
correction period, and referring employers for enforcement                 serious hazard only when there is documented
action if the serious hazards are not eliminated or controlled             evidence that correction has not been completed
during the agreed-upon correction period.                                  because of factors beyond the employer’s
                                                                           reasonable control, and the employer is taking all
WHY OIG CONDUCTED THE AUDIT                                                available interim steps to safeguard the employees
The OIG conducted the audit to determine:                                  against the hazard during the correction period;
    •   Did consultation program officials ensure interim               2. provide guidance to the States on acceptable types
        protection for employees was in place before                       of interim protection;
        granting employers’ requests for time extensions to             3. establish a performance measure that benchmarks
        correct serious hazards, and                                       and reports the percentage of serious hazards
    •   When serious hazards identified during consultation                corrected by the initial correction due date; and
        visits were not corrected timely, were the employers            4. enforce the requirement that State consultation
        referred to Federal/State OSHA for enforcement                     program officials immediately refer employers for
        action?                                                            enforcement action when serious hazards have not
                                                                           been corrected timely.
Our scope included serious hazards identified during
consultation visits in the States of Minnesota, Pennsylvania,       HOW THE AGENCY RESPONDED
and Virginia, and recorded in OSHA’s Integrated Management
                                                                    OSHA agreed with all of our recommendations, except
Information System for the period October 1, 2001, through
                                                                    Recommendation 3 because it currently has a performance
September 30, 2004.
                                                                    measure that benchmarks the percent of serious hazards
                                                                    verified corrected in a timely manner. As an alternative,
READ THE FULL REPORT                                                OSHA plans rigorous monitoring and creating specific
To view the report, including the scope, methodology, and full      benchmarks for States that may have problems monitoring
agency response, go to:                                             employer correction of serious hazards. However, OSHA’s
                                                                    current performance measure defines “timely” as corrected
http://www.oig.dol.gov/public/reports/oa/2007/05-07-                within 14 days of the latest correction due date, including all
001-10-105.pdf                                                      extensions. Our recommendation would provide OSHA with
                                                                    data to assist the consultants in establishing more accurate
                                                                    correction due dates. For this reason, we do not accept
                                                                    OSHA’s alternative corrective action for Recommendation 3.
                                                                                      OSHA Consultation Program




Table of Contents
                                                                                                                  PAGE

EXECUTIVE SUMMARY .......................................................................................... 3


ASSISTANT INSPECTOR GENERAL’S REPORT .................................................. 7

   Consultation Program Officials Seldom Ensured that Interim Protection
   Was In Place Before Granting Extensions to Employers ................................. 8

   Employers Were Seldom Referred for Enforcement Action When
   Serious Hazards Were Not Corrected Timely .................................................. 14

EXHIBITS ................................................................................................................ 19
   1.       Average Number of Days to Correct Serious Hazards
            after Identification When No Extensions Were Granted ....................... 21

   2.       Average Number of Days to Correct Serious Hazards
            after Identification When Extensions Were Granted ............................. 22


APPENDICES.......................................................................................................... 23
   A.       Background............................................................................................... 25

   B.       Objectives, Scope, Methodology, and Criteria....................................... 29

   C.       Acronyms and Abbreviations.................................................................. 33

   D.       Agency Response to Draft Report .......................................................... 35




U.S. Department of Labor—Office of Inspector General                                                                      1
Report Number: 05-07-001-10-105
OSHA Consultation Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                            U.S. Department of Labor—Office of Inspector General
                                                  Report Number 05-07-001-10-105
                                                            OSHA Consultation Program




Executive Summary
We completed a performance audit of the resolution of serious workplace hazards
identified through the Occupational Safety and Health Administration’s (OSHA’s)
Section 21(d) Consultation Program. Targeted primarily at small businesses, the
Consultation Program is a voluntary, free, and confidential service that allows
employers to learn about and correct potential hazards at their worksites without the
issuance of citations or penalties. OSHA requires that consultation program officials
explain to employers who request to participate in the Program that if a serious
hazard is not timely corrected, the Consultation Program Manager will immediately
refer the situation for enforcement action. At the opening conference, the consultant
must discuss the employer’s obligations and rights, including hazard correction,
which the employer must agree to in order for the consultation visit to continue.

Federal OSHA, under cooperative agreements with 48 States, the District of
Columbia, and several U.S. territories, administers and provides federal funding for
the Consultation Program. Consultants, employed by a State or territory, perform
the employer consultations. OSHA staff monitors the program data on a quarterly
basis and conducts on-site visits at the States.

The success of the Consultation Program is dependent on several key factors:
identifying serious hazards, correcting them timely, ensuring interim protection is in
place during the correction period, and referring employers for enforcement action if
the serious hazards are not eliminated or controlled during the agreed-upon
correction period.

The objectives of our audit were to answer the following questions:

   1. Did consultation program officials ensure interim protection for employees
      was in place before granting employers’ requests for time extensions to
      correct serious hazards?
   2. When serious hazards identified during consultation visits were not corrected
      timely, were the employers referred to Federal/State OSHA for enforcement
      action?

Our audit scope included serious hazards identified during consultation visits in the
States of Minnesota, Pennsylvania, and Virginia, for the period October 1, 2001,
through September 30, 2004.

Results

We have considered OSHA’s response and made certain revisions to the report,
including tables, to clarify our findings and recommendations.


U.S. Department of Labor—Office of Inspector General                                    3
Report Number: 05-07-001-10-105
OSHA Consultation Program



While we found that the Consultation Program identified and corrected 28,169
serious hazards in the three States we audited, we found two critical components of
the program were not working as intended: 1) consultation program officials seldom
ensured that interim protection was in place before granting employers’ requests for
extensions to correct serious hazards, and 2) employers who did not timely complete
corrective actions were seldom referred for enforcement action.

In general, OSHA responded that OIG’s report is out of context since the majority of
serious hazards were corrected timely without extensions or the need for an
enforcement referral. OIG recognizes this; however, notwithstanding how many
serious hazards were corrected timely, those not corrected timely left workers at risk.
OSHA further noted that the audit found that for 95 percent of the serious hazards
with extensions, there was documentation the employer demonstrated a good faith
effort to correct the serious hazard, which is a very strong indicator of the employer’s
commitment to correct serious hazards. While this is true, it is just one of three
conditions that must be met before the consultation manager can grant an extension
of time to correct the serious hazard. Evidence that the correction was not
completed because of factors beyond the employer’s reasonable control was not
documented in 30 percent of the serious hazards with extensions. More importantly,
interim protection was not documented in 97 percent of the serious hazards with
extensions. OSHA also asserted that failure to ensure interim protection before
extensions were granted relates to a lack of proper documentation. Nevertheless,
without documentation, OSHA cannot be assured that interim protection was
provided.

Objective 1     Did Consultation Program Officials Ensure Interim Protection
                for Employees Was In Place Before Granting Employers’
                Requests for Time Extensions to Correct Serious Hazards?

Of 399 serious hazards with extensions that we tested, consultation program officials
did not ensure the existence of interim protection for 389 serious hazards before
granting employers’ requests for additional time to correct them, as required by
OSHA Training and Education Directive (TED) 3.6. As a result, employees were
potentially exposed to serious hazards for lengthy periods, ranging from 84 to 109
days on average in the three States we audited. Further, OSHA considered serious
hazards corrected in a timely manner if employers completed corrective actions
within 14 days of the latest correction due date agreed to by the consultant. OSHA’s
implementation of this performance measure is ineffective in evaluating timely
corrective action because it is measured based on the latest extension granted
instead of the original date corrective action is expected.




4                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-07-001-10-105
                                                             OSHA Consultation Program



Objective 2       When Serious Hazards Identified During Consultation Visits
                  Were Not Corrected Timely, Were the Employers Referred to
                  Federal/State OSHA for Enforcement Action?

We audited three States and in these States alone, we identified 1,215 serious
hazards that were not corrected timely. For 1,202 of these, the employers were not
referred for enforcement action as required in 29 CFR 1908.6 and TED 3.6.
Consultation program officials in two of the three States told us they were reluctant
to refer employers for enforcement because they feared it would discourage
employers from participating in this voluntary program. As a result, workers
continued to work in hazardous conditions that may have subjected them to injuries,
illnesses, or fatalities. In addition to the fact that referrals for enforcement action
were required, we believe that referring such employers for possible enforcement
action creates an additional incentive to correct serious hazards, provides penalties
for employers who do not comply with the terms of the Consultation Program, and
increases the likelihood that workers will be properly protected from workplace
hazards.

Recommendations

We recommend that OSHA’s Assistant Secretary:

       1. enforce the requirement that State consultation program officials grant
          extensions to correct a serious hazard only when there is documented
          evidence that correction has not been completed because of factors
          beyond the employer’s reasonable control, and the employer is taking all
          available interim steps to safeguard the employees against the hazard
          during the correction period;

       2. provide guidance to the States on acceptable types of interim protection;

       3. establish a performance measure that benchmarks and reports the
          percentage of serious hazards corrected by the initial correction due date;
          and

       4. enforce the requirement that State consultation program officials
          immediately refer employers for enforcement action when serious hazards
          have not been corrected timely.

Agency Response

OSHA agreed with Recommendations 1, 2, and 4, but disagreed with OIG’s
Recommendation 3 because OSHA currently has a performance measure that
benchmarks the percent of serious hazards verified corrected in a timely manner.
OSHA cited alternative plans for rigorous monitoring and creating specific

U.S. Department of Labor—Office of Inspector General                                  5
Report Number: 05-07-001-10-105
OSHA Consultation Program



benchmarks for States that may have problems monitoring employer correction of
serious hazards.

The Agency response is included in its entirety at Appendix D.

OIG Conclusion

We have considered OSHA’s response and made certain revisions to the report,
including tables, to clarify our findings and recommendations.

We consider Recommendations 1, 2, and 4 resolved. These recommendations will
be closed after OSHA’s planned corrective action has been implemented and the
OIG has received evidence of the implementation.

With regard to Recommendation 3, OSHA’s current performance measure
benchmarks the percent of serious hazards verified corrected in a timely manner,
but defines “timely” as corrected within 14 days of the latest correction due date,
including all extensions. Our recommendation would provide OSHA with an
additional benchmark that would not only promote timely correction of hazards, but
eventually also provide data to assist the consultants in establishing more accurate
correction due dates. OSHA’s alternative plans for rigorous monitoring and creating
specific benchmarks for States that may have problems monitoring employer
correction of serious hazards is not sufficient to resolve the recommendation.




6                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number 05-07-001-10-105
                                                                                           OSHA Consultation Program


U.S. Department of Labor                                                 Office of Inspector General
                                                                         Washington, DC 20210




                                   Assistant Inspector General’s Report

Edwin G. Foulke, Jr.
Assistant Secretary
 for Occupational Safety and Health
200 Constitution Avenue, NW
Washington, DC 20210

We completed a performance audit of the resolution of serious workplace hazards
identified through OSHA’s Consultation Program. Targeted primarily at small
businesses, the Consultation Program is a voluntary, free, and confidential service
that allows employers to learn about and correct potential hazards at their worksites
without the issuance of citations or penalties. OSHA requires that consultation
program officials explain to employers who request to participate in the Program that
if a serious hazard is not timely corrected, the Consultation Program Manager will
immediately refer the situation for enforcement action. At the opening conference,
the consultant must discuss the employer’s obligations and rights, including hazard
correction, which the employer must agree to in order for the consultation visit to
continue. Additional background information is contained in Appendix A.

The objectives of our audit were to answer the following questions:

      1. Did consultation program officials ensure interim protection for employees
         was in place before granting employers’ requests for time extensions to
         correct serious hazards?
      2. When serious hazards identified during consultation visits were not corrected
         timely, were the employers referred to Federal/State OSHA for enforcement
         action?

Our audit scope included serious hazards1 identified during consultation visits in the
States of Minnesota, Pennsylvania, and Virginia, for the period October 1, 2001,
through September 30, 2004. To accomplish our objectives, we interviewed Federal
and State personnel, analyzed data from OSHA’s Integrated Management
Information System (IMIS) and reviewed a sample of consultation case files. Our
audit objectives, scope, methodology, and criteria are detailed in
Appendix B.



1
    A serious hazard is any condition or practice which would be classified as a serious violation of applicable federal or state
    statutes, regulations or standards, based on criteria contained in the current OSHA field instructions or approved State Plan
    counterpart, excluding the element of employer knowledge.


U.S. Department of Labor—Office of Inspector General                                                                            7
Report Number: 05-07-001-10-105
OSHA Consultation Program


The success of the Consultation Program is dependent on several key factors:
identifying serious hazards, correcting them timely, ensuring interim protection is in
place during the correction period, and referring employers for enforcement action if
the serious hazards are not eliminated or controlled during the agreed-upon
correction period. While we found that the Consultation Program identified and
corrected 28,169 serious hazards in the three States we audited, we found two
critical components of the program were not working as intended: 1) consultation
program officials seldom ensured that interim protection was in place before granting
employers’ requests for extensions to correct serious hazards, and 2) employers
who did not timely complete corrective actions were seldom referred for enforcement
action.

In general, OSHA responded that OIG’s report is out of context since the majority of
serious hazards were corrected timely without extensions or the need for an
enforcement referral. OIG recognizes this; however, notwithstanding how many
serious hazards were corrected timely, those not corrected timely left workers at risk.
OSHA further noted that the audit found that for 95 percent of the serious hazards
with extensions, there was documentation the employer demonstrated a good faith
effort to correct the serious hazard, which is a very strong indicator of the employer’s
commitment to correct serious hazards. While this is true, it is just one of three
conditions that must be met before the consultation manager can grant an extension
of time to correct the serious hazard. Evidence that the correction was not
completed because of factors beyond the employer’s reasonable control was not
documented in 30 percent of the serious hazards with extensions. More importantly,
interim protection was not documented in 97 percent of the serious hazards with
extensions. OSHA also asserted that failure to ensure interim protection before
extensions were granted relates to a lack of proper documentation. Nevertheless,
without documentation, OSHA cannot be assured that interim protection was
provided.

Objective 1 – Did Consultation Program Officials Ensure Interim Protection for
Employees Was In Place Before Granting Employers’ Requests for Time
Extensions to Correct Serious Hazards?

Finding – Consultation Program Officials Seldom Ensured that Interim
Protection Was In Place Before Granting Extensions to Employers.

Of 399 serious hazards with extensions, consultation program officials did not
ensure the existence of interim protection for 389 serious hazards before granting
employers’ requests for additional time to correct them, as required by OSHA
Training and Education Directive (TED) 3.6. As a result, employees in the three
States we audited were potentially exposed to serious hazards for lengthy periods,
ranging from 84 to 109 days on average. Further, OSHA considered serious
hazards corrected in a timely manner if employers completed corrective actions
within 14 days of the latest correction due date agreed to by the consultant. OSHA’s
implementation of this performance measure is ineffective in evaluating timely

8                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-07-001-10-105
                                                              OSHA Consultation Program




corrective action because it is measured based on the latest extension granted
instead of the original date corrective action is expected.

Federal regulations at 29 CFR 1908.6(f) (3) allow the consultation manager to grant
the employer an extension if the correction has not been completed, providing the
employer meets three conditions:

   1. demonstrates having made a good faith effort to correct the hazard within the
      established time frame;
   2. shows evidence that correction has not been completed because of factors
      beyond the employer's reasonable control; and
   3. shows evidence that the employer is taking all available interim steps to
      safeguard the employees against the hazard during the correction period.

TED 3.6, Chapter 6 (formerly Chapter 5), Part III.C states:

       … Any extensions to the correction due date (oral or written) must be
       documented. The documentation must include an explanation of why
       correction was not completed in the established time frame and
       evidence that the employer is safeguarding employees against the
       hazard with interim protection during the correction period must be
       documented (underlining added for emphasis).

Despite the regulations and TED 3.6 requirements, our audit testing showed that,
with few exceptions, there was no documentation that interim protection was in place
before granting an extension. As summarized in the table on the following page, for
18 out of 399 serious hazards with extensions, or 5 percent, the employers did not
demonstrate a good faith effort to correct the serious hazard [Condition 1]. For 118
out of 399 serious hazards with extensions, or 30 percent, the employers did not
show evidence that the correction was not completed because of factors beyond the
employer’s reasonable control [Condition 2]. For 389 out of 399 serious hazards
with extensions, or 97 percent, the employers did not have the required
documentation of interim protection [Condition 3].




U.S. Department of Labor—Office of Inspector General                                  9
Report Number: 05-07-001-10-105
OSHA Consultation Program



                             Serious Hazards with Extensions

                                                           Condition 2 -
                                                           No Evidence
                                           Condition 1 -
                                                               That
                                                No
                              Number of                     Correction     Condition 3 -
                                           Demonstrated
                               Serious                       Was Not         Interim
                                            Good Faith
                               Hazards                      Completed       Protection
                                             Effort to
                                 with                       Because of         Not
                                            Correct the
                              Extensions                     Factors       Documented
                                             Serious
                                                             Beyond
                                             Hazard
                                                            Employer’s
                                                             Control
              Minnesota
              FY 2002            16             0               5               15
              FY 2003             7             2               5                7
              FY 2004             8             0               3                8
              Total              31             2               13              30

              Pennsylvania
              FY 2002            108            0               21             104
              FY 2003             77            0               28              77
              FY 2004             50            0               14              50
              Total              235            0               63             231

              Virginia
              FY 2002             93            11             32              90
              FY 2003             23             5              5              22
              FY 2004             17             0              5              16
              Total              133            16             42              128
              Grand Total        399            18             118             389


The following examples, from the 389 case files we reviewed, illustrate the potential
impact of employers being granted extensions to serious hazards without interim
protection documented:

      •   An employer was notified of a serious hazard involving the
          requirement that electrical wiring and spraying equipment be
          explosion proof [29 CFR 1910.107 (c) (6)]. The elapsed time
          between the consultation visit and the original correction due date
          was 64 days. The employer was granted two time extensions
          without evidence of interim protection in place. An additional 228
          days elapsed from the original correction due date until the date the
          hazard was corrected. As a result, 10 workers were potentially
          exposed to this serious hazard for 292 days.

      •   An employer was notified of a serious hazard involving the
          requirement for live parts of electrical equipment to be guarded
          against accidental contact [29 CFR 1910.303(g) (2) (i)]. The
          elapsed time between the consultation visit and the original
          correction due date was 44 days. The employer was granted three
          time extensions to correct this hazard, even though evidence of
          interim protection was not in place. An additional 92 days elapsed
          between the original correction due date and the date the hazard


10                                         U.S. Department of Labor—Office of Inspector General
                                                                Report Number 05-07-001-10-105
                                                             OSHA Consultation Program



           was corrected. As a result, 25 workers were potentially exposed to
           this serious hazard for 136 days.

       •   Another employer was notified of a serious hazard pertaining to the
           requirement that a circular crosscut table saw be guarded by a
           hood [29 CFR 1910.213(d) (1)]. The elapsed time between the
           consultation visit and the original correction due date was 78 days.
           The employer was granted two extensions to correct this hazard
           without evidence of interim protection. An additional 104 days
           elapsed between the original correction due date and the date the
           hazard was corrected. As a result, 14 workers were potentially
           exposed to this serious hazard for 182 days.

We interviewed the top program managers in the three States we audited to
determine why interim protection was not documented, and two of the three
stated there is not a clear and consistent understanding of the requirement:

       •   A Consultation Program Director responded that interim protection is an
           area that is not being consistently followed because it is not clear-cut. He
           gave the example that if the employer’s written safety and health
           programs are not available to employees, or not even prepared, it is hard
           to identify what interim protection the employer should, or can, provide.

       •   Another Consultation Program Manager responded that he was not aware
           of the written requirements for interim protection in effect during our audit
           period. He said he felt assured that interim protection was being provided
           as evidenced by the fact that employers had not reported injuries. He also
           stated that interim protection is not always practical for employers to
           provide and that OSHA should clarify what interim protection is needed.

Nonetheless, Federal regulations and OSHA guidance clearly require that interim
protection be in place throughout the serious hazard correction period, not just when
an extension is requested, as was discussed above. Further, 29 CFR 1908.5 (a) (3)
requires that the State inform the employer of its responsibilities before accepting
the request for a consultation visit:

       …The state shall explain that while utilizing this service, an employer
       remains under a statutory obligation to provide safe and healthful work
       and working conditions for employees. In addition, while the
       identification of hazards by a consultant will not mandate the issuance
       of citations or penalties, the employer is required to … take action to
       correct within a reasonable time any serious hazards that are
       identified.




U.S. Department of Labor—Office of Inspector General                                  11
Report Number: 05-07-001-10-105
OSHA Consultation Program



TED 3.6, Chapter 7 (formerly Chapter 6), Part I.B.2 provides that serious hazards
have to be corrected, or that the consultant recommends interim protection
measures, before the consultant leaves the site:

      Where it is impossible to correct a serious hazard before the consultant
      leaves the employer’s site, the consultant must recommend interim
      protection measures to the employer.

With OSHA’s current procedures, interim protection is not required to be
documented until an extension is requested. Therefore, unless the employer
requested an extension, it is not known whether interim protection (the consultant’s
recommendation or an employer’s alternative) was provided prior to correcting the
serious hazard. We calculated the average correction period to demonstrate that
employees were potentially exposed to serious hazards for lengthy periods after
hazard identification. As shown in Exhibit 1 (page 19), time to correct serious
hazards without extensions ranged from 28 to 43 days on average in the three
States we audited. However, as shown in Exhibit 2 (page 20), serious hazards with
extensions took significantly longer to correct, ranging from 84 to 109 days on
average for the three States. In addition, in one State, three serious hazards
identified each took over 300 days to correct, including extensions, after the serious
hazards were identified. These three hazards were in the manufacturing industry
and involved exposure to machines without a safety guard.

OSHA considered serious hazards corrected in a timely manner if employers
completed corrective actions within 14 days of the latest correction due date agreed
to by the consultant. This performance measure was reported quarterly by OSHA
on the Mandated Activities Report for Consultation (MARC). In Fiscal Year
(FY) 2004, OSHA set a goal for State consultation programs to assure that
85 percent of the serious hazards identified during consultation visits be corrected in
a timely manner. OSHA’s implementation of this performance measure is ineffective
in evaluating timely corrective action because it is measured based on the latest
extension granted instead of the original date corrective action is expected. OSHA
should consider tracking the serious hazards corrected by the initial correction due
date.

Recommendations

We recommend that the Assistant Secretary for Occupational Safety and Health:

      1. enforce the requirement that State consultation program officials grant
         extensions to correct a serious hazard only when there is documented
         evidence that correction has not been completed because of factors
         beyond the employer’s reasonable control, and the employer is taking all
         available interim steps to safeguard the employees against the hazard
         during the correction period;


12                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-07-001-10-105
                                                             OSHA Consultation Program



       2. provide guidance to the States on acceptable types of interim protection;
          and

       3. establish a performance measure that benchmarks and reports the
          percentage of serious hazards corrected by the initial correction due date.

Agency Response

OSHA agrees with the intent of Recommendation 1 and has taken a number of
steps to ensure that consultants grant extensions in accordance with program
requirements and assure that interim protection is in place to safeguard employees
until abatement of the hazard is accomplished. OSHA’s new information
management system, OSHA Information System (OIS), will not allow consultants to
grant extensions without attesting that proper interim protection is in place. Next, the
Fiscal Year 2008 cooperative agreements with the States require, as a condition for
granting funds, that the programs ensure that employers granted extensions for
correction of serious hazards demonstrate good faith, show evidence of steps taken
to correct serious hazards, and provide interim protection during the extended
correction period. Additionally, OSHA intends to issue a memorandum to all
Regional Administrators reinforcing the need for proper documentation and
monitoring programs for the correction of serious hazards and interim protection.
Consultation Program Managers will be issued a similar memorandum, reiterating
the importance of following proper procedures for documentation when granting
extensions. Finally, training was provided to all Consultation Program Managers at
the recent training conference to ensure that established policies and procedures for
the correction of serious hazards are properly understood and adhered to.

OSHA agrees with Recommendation 2 that States must be aware of the acceptable
types of interim protection and therefore revised TED 3.6 in December 2006,
subsequent to audit fieldwork, to broadly outline options for interim protection. Other
resources are also available on OSHA’s website to assist consultants in
recommending interim protection. The Agency also provides technical assistance
through Regional Engineers and Hygienists, the Salt Lake Technical Center, the
Cincinnati Laboratory, and the Wisconsin Occupational Health Laboratory. OSHA
will continue to inform programs of these resources and will issue annual reminders
on the availability of guidance materials for the selection of interim protection.

OSHA disagrees with Recommendation 3. OSHA believes it is not feasible to
predict the length of time required to abate every type of workplace hazard. The
time required to abate a hazard can vary depending on many factors. Establishing a
performance measure that benchmarks the percentage of serious hazards corrected
by the initial correction due date would not change the conditions that require a
consultant to revise the correction time period. OSHA is concerned that establishing
a new benchmark tied to the initial correction due date could have the opposite
effect of that intended as it might encourage some programs to grant longer initial
correction due dates in an effort to meet the established benchmark.

U.S. Department of Labor—Office of Inspector General                                  13
Report Number: 05-07-001-10-105
OSHA Consultation Program



OSHA does agree that measuring performance and benchmarking the correction of
serious hazards is an important element in tracking the effectiveness of the On-site
Consultation Program and has a performance measure that benchmarks the percent
of serious hazards verified corrected in a timely manner. The standard for this
benchmark is 100 percent. An element of this benchmark is a measure that tracks
the correction of serious hazards based on the initial correction due date. OSHA
does not believe that establishing a performance standard for this measure will be
valuable in defining overall program performance. However, the Agency believes
that rigorous monitoring of the timely correction of serious hazards is the most
prudent action. The OIS currently being designed will allow OSHA to create specific
benchmarks for particular States that may have problems monitoring the correction
of serious hazards.

OIG Conclusion

We consider Recommendations 1, 2, and 4 resolved. These recommendations will
be closed after OSHA’s planned corrective action has been implemented and the
OIG has received evidence of the implementation.

With regard to Recommendation 3, OSHA’s current performance measure
benchmarks the percent of serious hazards verified corrected in a timely manner,
but defines “timely” as corrected within 14 days of the latest correction due date,
including all extensions. Our recommendation would provide OSHA with an
additional benchmark that would not only promote timely correction of hazards, but
eventually also provide data to assist the consultants in establishing more accurate
correction due dates. OSHA’s alternative plans for rigorous monitoring and creating
specific benchmarks for States that may have problems monitoring employer
correction of serious hazards is not sufficient to resolve the recommendation.

Objective 2 – When Serious Hazards Identified During Consultation Visits
Were Not Corrected Timely, Were the Employers Referred to Federal/State
OSHA for Enforcement Action?

Finding – Employers Were Seldom Referred for Enforcement Action When
Serious Hazards Were Not Corrected Timely.

We audited three States and in these States alone, we identified 1,215 serious
hazards that were not corrected timely. For 1,202 of these, the employers were not
referred for enforcement action, as required in 29 CFR 1908.6 and TED 3.6.
Consultation program officials in two of the three States told us they were reluctant
to refer employers for enforcement because they feared it would discourage
employers from participating in this voluntary program. As a result, workers
continued to work in hazardous conditions that may have subjected them to injuries,
illnesses, or fatalities. In addition to the fact that referrals for enforcement action
were required, we believe that referring such employers for possible enforcement

14                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-07-001-10-105
                                                            OSHA Consultation Program



action creates an additional incentive to correct serious hazards, provides penalties
for employers who do not comply with the terms of the Consultation Program, and
increases the likelihood that workers will be properly protected from workplace
hazards.

Federal regulations at 29 CFR 1908.6 (f) (4) require:

       If the employer fails to take the action necessary to correct a serious
       hazard within the established time frame or any extensions thereof, the
       consultation manager shall immediately notify the appropriate OSHA
       enforcement authority and provide the relevant information. The
       OSHA enforcement authority will make a determination, based on a
       review of the facts, whether enforcement activity is warranted.

TED 3.6, Chapter 7, Part III also requires referral to the OSHA enforcement
authority:

       … Where the Consultation Project Manager determines that a serious
       hazard persists at a site that has received a consultation service, the
       Consultation Project Manager must make a referral to OSHA. Any of
       the following conditions is grounds for referral to OSHA:

          ... B. A serious hazard that is not corrected within the established
          time frame, including extensions.

The consultation program directors in the three States we visited did not follow the
regulations or OSHA guidance requiring that they immediately refer employers for
enforcement action when the serious hazards were not timely corrected. In our audit
analysis of 5,217 consultation visits reported in the IMIS database for the three
States, we found 1,215 serious hazards that were not timely corrected. Of these,
only 13 were referred for enforcement action, as required. We identified
1,202 serious hazards where the employers did not timely correct the hazards but
were not referred for possible enforcement action, as summarized on the next page:




U.S. Department of Labor—Office of Inspector General                                15
Report Number: 05-07-001-10-105
OSHA Consultation Program


                      Of Serious Hazards Not Timely Corrected,
                      Most Were Not Referred for Enforcement

                                              Serious Hazards         Serious Hazards
                       Serious Hazards
                                            Not Timely Corrected    Not Timely Corrected
                     Not Timely Corrected
                                                and Referred         and Not Referred
     Minnesota:
     FY 2002                  89                      0                      89
     FY 2003                  51                      0                      51
     FY 2004                  21                      0                      21
     Pennsylvania:
     FY 2002                  141                     0                     141
     FY 2003                  77                      0                      77
     FY 2004                  37                      0                      37
     Virginia:
     FY 2002                  330                     0                     330
     FY 2003                  160                     3                     157
     FY 2004                  309                    10                     299
     Totals                  1,215                   13                    1,202

State consultation program officials in two of the three States told us they were
reluctant to refer employers for enforcement because they were concerned that it
would discourage other employers from volunteering to participate in the program.
One program official said that when employers have a positive experience with a
consultant, they may tell a few other employers. However, if employers have a bad
experience with a consultant, they will tell many other employers. Another program
official said that employers that are eligible for the program may not volunteer for a
consultation visit for fear of referral for enforcement action. This, in turn, may reduce
the number of consultation requests the State receives.

Subsequent to our audit fieldwork, Minnesota added the following to its written
procedures in Minnesota Workplace Safety Consultation (WSC) ADM 3.1, Section E,
dated February 1, 2006:

         Referrals will only be made when it is evident that an employer is no
         longer cooperating with the WSC Director and is no longer willing to
         fulfill their obligation to correct the serious hazards noted during the
         onsite visit.

This provision is contrary to 29 CFR 1908.6 (f) (4) because it does not require
immediate referrals to the enforcement agency if an employer fails to correct a
serious hazard within the established time frame, including extensions.

Workers will continue to be exposed to hazardous working conditions that may result
in workplace injuries, illnesses, or fatalities when employers who fail to complete
corrective actions in a timely manner are not immediately referred to OSHA for
enforcement action.



16                                     U.S. Department of Labor—Office of Inspector General
                                                            Report Number 05-07-001-10-105
                                                             OSHA Consultation Program



Recommendation

       4. We recommend that OSHA’s Assistant Secretary enforce the requirement
          that State consultation program officials immediately refer employers for
          enforcement action when serious hazards have not been corrected timely.

Agency Response

OSHA agrees with Recommendation 4 and that the protection of employees from
serious workplace hazards is a critically important matter and any disregard for this
notion must be handled appropriately, including referral for enforcement action.
OSHA has taken some actions and will implement some additional measures to
ensure that consultation program officials continue to refer employers for
enforcement action when serious hazards are not corrected in a timely manner.
OSHA revised TED 3.6 in December 2006 which clearly outlines the requirements
for referral to enforcement for all programs. Additionally, training was provided to all
Consultation Program Managers and Regional Consultation Officers at the recent
training conference to ensure established program policies and procedures are
properly understood and adhered to by the programs. Next, the Fiscal Year 2008
cooperative agreements with the State programs contain language that the
programs will “ensure that the appropriate OSHA enforcement authority is notified if
an employer fails to take the action necessary to correct a serious hazard within the
established time frame or any extensions granted.” This requirement will be
monitored by the Regional Offices and reported in the Regional Annual Consultation
Evaluation Report for each program within their jurisdiction. Finally, OSHA intends
to issue a memorandum to all Regional Administrators reinforcing the need for
proper monitoring of programs in their jurisdiction for the correction of serious
hazards and enforcement referrals for failure to correct hazards in a timely manner.
Consultation Program Managers will be issued a similar memorandum, reiterating
the importance of following proper procedures for the correction of serious hazards.

OIG Conclusion

We consider Recommendation 4 resolved. This recommendation will be closed
after OSHA’s planned corrective action has been implemented and the OIG has
received evidence of the implementation.




Elliot P. Lewis
April 26, 2007




U.S. Department of Labor—Office of Inspector General                                  17
Report Number: 05-07-001-10-105
OSHA Consultation Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                           U.S. Department of Labor—Office of Inspector General
                                                  Report Number 05-07-001-10-105
                                                       OSHA Consultation Program




Exhibits




U.S. Department of Labor—Office of Inspector General                         19
Report Number: 05-07-001-10-105
OSHA Consultation Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                           U.S. Department of Labor—Office of Inspector General
                                                  Report Number 05-07-001-10-105
                                                                                         OSHA Consultation Program


                                                                                                          EXHIBIT 1

                                       Average Number of Days
                                      to Correct Serious Hazards
                                          after Identification
                                   When No Extensions Were Granted


                                                                 Number of
                                                                                       Average
                                                 Serious          Serious
                                                                                      Number of
                                                 Hazards          Hazards
                                                                                       Days to
                                                 Tested           Without
                                                                                       Correct2
                                                                 Extensions
                          Minnesota
                          FY 2002                   234               206                  31
                          FY 2003                   332               292                  28
                          FY 2004                   228               196                  25
                          Average                                                          28

                          Pennsylvania
                          FY 2002                   315               197                  52
                          FY 2003                   292               155                  41
                          FY 2004                   327               209                  37
                          Average                                                          43

                          Virginia
                          FY 2002                   476               386                  44
                          FY 2003                   260               237                  28
                          FY 2004                   257               235                  38
                          Average                                                          38




2 We could not attest to the accuracy of the calculation because of errors identified and missing data.


U.S. Department of Labor—Office of Inspector General                                                             21
Report Number: 05-07-001-10-105
OSHA Consultation Program


                                                                                                          EXHIBIT 2

                                        Average Number of Days
                                       to Correct Serious Hazards
                                           after Identification
                                      When Extensions Were Granted


                                                                Number of              Average
                                                Serious
                                                                 Serious              Number of
                                                Hazards
                                                               Hazards With            Days to
                                                Tested
                                                                Extensions             Correct3
                          Minnesota
                          FY 2002                  234                15                   63
                          FY 2003                  332                5                   102
                          FY 2004                  228                13                  102
                          Average                                                          84

                          Pennsylvania
                          FY 2002                  315                115                 121
                          FY 2003                  292                132                 115
                          FY 2004                  327                115                  92
                          Average                                                         109

                          Virginia
                          FY 2002                  476                89                  122
                          FY 2003                  260                22                   69
                          FY 2004                  257                17                   76
                          Average                                                         107




3 We could not attest to the accuracy of the calculation because of errors identified and missing data.


22                                                    U.S. Department of Labor—Office of Inspector General
                                                                           Report Number 05-07-001-10-105
                                                       OSHA Consultation Program




Appendices




U.S. Department of Labor—Office of Inspector General                         23
Report Number: 05-07-001-10-105
OSHA Consultation Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                           U.S. Department of Labor—Office of Inspector General
                                                  Report Number 05-07-001-10-105
                                                             OSHA Consultation Program


                                                                         APPENDIX A
BACKGROUND


The Consultation Program is provided for in the Occupational Safety and Health Act
of 1970, Section 21(d), which was added in 1998. It is a proactive program
designed to assist employers in identifying and correcting workplace hazards without
the penalties associated with a normal enforcement inspection.

The Consultation Program is a voluntary program available to small employers with
fewer than 250 employees at a fixed site and no more than 500 corporation-wide.
Priority in scheduling visits is given to employers in high hazard industries, such as
construction and manufacturing. The onsite consultation is provided only at the
request of the employer.

OSHA, under cooperative agreements with 48 States, the District of Columbia, and
several U.S. territories, administers and provides federal funding for the On-site
Consultation Program. Currently, there are 29 States, the District of Columbia, and
3 territories that operate On-site Consultation programs under Federal OSHA
jurisdiction and follow OSHA standards. This includes 3 States and 1 territory
whose State plans cover only public sector employment and also provide private
sector On-site Consultation services under section 21(d) of the Occupational Safety
and Health (OSH) Act. In addition, 19 State-plan States operate On-site
consultation programs under State jurisdiction and follow State standards, which are
at least as restrictive as Federal OSHA standards. Consultants, employed by a
State or territory, perform the employer consultations. OSHA staff monitors the
program data on a quarterly basis and conduct on-site visits at the States.

OSHA provides 90 percent of the funding to States that administer consultation
programs, and the States are required to provide the remaining 10 percent. The
Federal Fiscal Year 2004 budget for this activity was $52.2 million. Minnesota
received $933,390; Pennsylvania received $1,618,000; and Virginia received
$966,000.

OSHA requires that consultation program officials explain to employers who request
to participate in the Program that if a serious hazard is not timely corrected, the
Consultation Program Manager will immediately refer the situation for enforcement
action. At the opening conference, the consultant must discuss the employer’s
obligations and rights, including hazard correction, which the employer must agree
to in order for the consultation visit to continue.

During the consultation, employers learn about potential hazards at their worksite
without triggering an enforcement inspection. The employer is required to take
immediate action necessary to eliminate hazards that represent imminent dangers to
employees. When serious hazards are identified, the consultant advises the
employer of appropriate corrective methods, assists the employer in developing an


U.S. Department of Labor—Office of Inspector General                                 25
Report Number: 05-07-001-10-105
OSHA Consultation Program


action plan, and establishes reasonable correction due dates with the employer. A
List of Hazards is submitted to the employer which is required to post the list as a
means of informing employees about hazards in the workplace. Where it is
impossible to correct a serious hazard before the consultant leaves the site, the
consultant must recommend interim protection measures to the employer. Further,
the consultant must indicate in the case file notes whether interim protection is
required, the nature of the recommended interim protection, and the date the interim
protection must be in place.

A written report is provided to the employer at the conclusion of the visit. The report
lists the hazards and unsafe working conditions identified during the consultation
visit, the corrective actions required of the employer, and mutually agreed upon
correction dates for all serious hazards.

The State’s Consultation Manager can agree to extend the initial deadline if the
employer demonstrates a good faith effort at correction. Any extensions to the
correction due date (oral or written) must be documented. The documentation must
include an explanation of why the correction was not completed in the established
time frame, and evidence that the employer is safeguarding employees against the
hazard with interim protection during the correction period must be documented.

Benefits to employers that participate in the Consultation Program are that no
citations are issued or penalties proposed for hazards identified by the consultant.
In addition, the employer will not face a programmed inspection for at least one year.
The consultation is confidential; employer names and any information provided
about the workplace, plus any unsafe or unhealthful working conditions that the
consultant uncovers, will not routinely be reported to the OSHA inspection staff.
However, if an employer fails to immediately correct or remove employees from
imminent danger situations, or eliminate serious hazards according to the corrective
action plan and within the agreed-upon time frames, the situation must be
immediately referred to the appropriate State or Federal authorities for enforcement
action.

OSHA measures the Consultation Program’s progress through the Mandated
Activities Report for Consultation (MARC). The MARC is the summary and analysis
of the consultation activities from all States compiled and reported on a quarterly
basis by the OSHA consultation officials in the National Office. The Regional
Consultation Program Officer and the Consultation Program Manager review the
consultation program data on the MARC to identify performance that does not meet
the following measures:

       •   percent of serious hazards verified corrected in a timely manner;
       •   percent of serious hazards not verified corrected in a timely manner;
       •   percent of serious hazards referred to enforcement; and
       •   number of uncorrected serious hazards with the correction due date
           greater than 90 days past due (104 days in total).

26                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-07-001-10-105
                                                        OSHA Consultation Program


OSHA Training and Education Directive (TED) 3.6 – Consultation Policies and
Procedures Manual (CPPM) – outlines the policies and procedures applicable to the
Consultation Program. TED 3.6 was issued in August 2001 to replace TED 3.5B
and TED 3.5C; it was revised in 2004, and again in December 2006.




U.S. Department of Labor—Office of Inspector General                           27
Report Number: 05-07-001-10-105
OSHA Consultation Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                           U.S. Department of Labor—Office of Inspector General
                                                  Report Number 05-07-001-10-105
                                                              OSHA Consultation Program


                                                                           APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The objectives of our performance audit were to answer the following questions:

        1. Did consultation program officials ensure interim protection for employees
           was in place before granting employers’ requests for time extensions to
           correct serious hazards?
        2. When serious hazards identified during consultation visits were not
           corrected timely, were the employers referred to Federal/State OSHA for
           enforcement action?

Scope

Our audit period covered serious hazards identified during onsite consultation visits
initiated between October 1, 2001, and September 30, 2004 (Fiscal Years 2002
through 2004). The audit scope was limited to the consultation programs in three
States: Minnesota, Pennsylvania, and Virginia. We selected these States giving
consideration to include State plan States (Minnesota and Virginia) and States
operated by OSHA (Pennsylvania), as well as States with a high number of serious
hazards identified (Minnesota and Pennsylvania), and States with (Virginia) and
without (Minnesota and Pennsylvania) referrals for enforcement action.

Methodology

To achieve our objectives, we interviewed OSHA National Office officials to obtain
general information about the consultation program environment. We also provided
them with the required fields for a download of the IMIS database of “initial” (first, not
follow-up) onsite consultation visits initiated between October 1, 2001, and
September 30, 2004, in Minnesota, Pennsylvania, and Virginia.

Using the IMIS database provided, we conducted certain audit steps on the audit
universe for each of the three States in our audit scope. We also performed other
audit steps on a sample of case files statistically selected based on guidance
provided by the OIG Statistician. We randomly selected the case files for review so
that each case file would have an equal chance to be selected. The sample size
was determined using a 95 percent confidence level and + 7 percent sampling
precision. The results are shown in the following chart:




U.S. Department of Labor—Office of Inspector General                                    29
Report Number: 05-07-001-10-105
OSHA Consultation Program


                                         Audit Universe and Sample

                                           Universe                                   Sample
                                    Consultation Serious                      Consultation Serious
                                       Visits     Hazards                       Visits4    Hazards5
         Minnesota:
         FY 2002                           812                 3,641                  52                   234
         FY 2003                           780                 4,065                  50                   332
         FY 2004                           650                 3,335                  41                   228
         Total                            2,242               11,041                 143                   794
         Pennsylvania:
         FY 2002                           556                 3,395                  55                   315
         FY 2003                           471                 2,740                  46                   292
         FY 2004                           532                 3,123                  51                   327
         Total                            1,559                9,258                 152                   934
         Virginia:
         FY 2002                           541                 3,525                  59                  476
         FY 2003                           430                 2,905                  48                  260
         FY 2004                           445                 2,655                  44                  257
         Total                            1,416                9,085                 151                  993
         Totals                           5,217               29,384                 446                 2,721

Our methodology included the following audit analyses of 5,217 onsite consultation
visits in the database for the three States:

           •    visits with serious hazards not corrected within 14 days after the latest
                correction due date (OSHA standard);
           •    visits with serious hazards where the employers did not timely correct the
                serious hazards and the employer was in a high hazard industry;
           •    visits with serious hazards that were not corrected timely and were
                referred for enforcement action;
           •    visits with serious hazards that were not timely corrected and were not
                referred for enforcement action;
           •    visits with serious hazards not corrected within 14 days after the initial
                agreed-upon correction due date; and
           •    average number of days to correct a serious hazard uncorrected more
                than 14 days after the initial agreed-upon correction due date (from
                opening conference date).

Our methodology also included the following audit analyses of 446 case files in our
statistical sample:

4 These numbers include 10 case files that the states could not locate. However, the unlocated files were immaterial to the
     sample taken as a whole.
5 The number of serious hazards was determined from hard copy Hazard Form 40s in 436 case files.


30                                                   U.S. Department of Labor—Office of Inspector General
                                                                          Report Number 05-07-001-10-105
                                                            OSHA Consultation Program


       •   IMIS data completeness and accuracy;
       •   visits with serious hazards granted an extension;
       •   number of extensions granted for serious hazards;
       •   for serious hazards granted an extension, employers demonstrated good
           faith effort to correct, evidence that correction not completed because of
           factors beyond the employer’s control, and interim protection documented;
       •   visits with serious hazards not corrected within 14 days after the latest
           correction due date (OSHA standard); and
       •   average number of days from consultation visit opening conference until
           serious hazard was corrected.

As part of our fieldwork, we interviewed the officials responsible for the State
consultation programs to determine management controls over relevant activities.
Our management controls work included obtaining and reviewing the States’
consultation policies and procedures for: 1) establishing corrective action due dates
for hazards identified, 2) granting extensions, and 3) referring employers to OSHA
for enforcement action. We also reviewed OSHA performance reports, particularly
the quarterly MARC. Our testing of management controls focused only on the
controls related to our audit objectives and was not intended to form an opinion on
the adequacy of overall management controls, and we do not render such an
opinion.

During audit attribute testing for data accuracy, we reviewed the consultation case
files, including Consultation Visit (Form 30) and Hazards Report (Form 40). Our
testing determined the State’s compliance with 29 CFR 1908 and OSHA Directive
TED 3.6. This testing was not intended to form an opinion on compliance with laws
and regulations as a whole, and we do not render such an opinion.

We conducted our performance audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and we
performed such tests as we considered necessary to satisfy our audit objectives.

Our audit was conducted onsite at the OSHA National Office; the Chicago Regional
OSHA Office; and the State consultation program offices. We visited the State
Offices in St. Paul, Minnesota; Indiana, Pennsylvania; and Richmond, Virginia. Via
teleconference, we also interviewed consultation program officials in the
Philadelphia Regional OSHA Office. Our fieldwork began July 25, 2005, and ended
April 26, 2007.




U.S. Department of Labor—Office of Inspector General                                31
Report Number: 05-07-001-10-105
OSHA Consultation Program


Criteria

We used the following criteria to perform this audit:

       OSH Act of 1970, Section 21 (d)
       29 CFR 1908 – Consultation Agreements
       OSHA Directive TED 3.6, as amended through December 2006 –
          Consultation Policies and Procedures Manual (CPPM)




32                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-07-001-10-105
                                                         OSHA Consultation Program


                                                                    APPENDIX C
ACRONYMS AND ABBREVIATIONS


       ADM           Administrative Directive Manual
       CFR           Code of Federal Regulations
       CPPM          Consultation Policies and Procedures Manual
       FY            Fiscal Year
       IMIS          Integrated Management Information System
       MARC          Mandated Activities Report for Consultation
       OIS           OSHA Information System
       OSHA          Occupational Safety and Heath Administration
       TED           Training and Education Directive
       WSC           Workplace Safety Consultation




U.S. Department of Labor—Office of Inspector General                           33
Report Number: 05-07-001-10-105
OSHA Consultation Program




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                           U.S. Department of Labor—Office of Inspector General
                                                  Report Number 05-07-001-10-105
                                                       OSHA Consultation Program


                                                                  APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                         35
Report Number: 05-07-001-10-105
OSHA Consultation Program




36                          U.S. Department of Labor—Office of Inspector General
                                                 Report Number 05-07-001-10-105
                                                       OSHA Consultation Program




U.S. Department of Labor—Office of Inspector General                         37
Report Number: 05-07-001-10-105
OSHA Consultation Program




38                          U.S. Department of Labor—Office of Inspector General
                                                 Report Number 05-07-001-10-105
                                                       OSHA Consultation Program




U.S. Department of Labor—Office of Inspector General                         39
Report Number: 05-07-001-10-105
OSHA Consultation Program




40                          U.S. Department of Labor—Office of Inspector General
                                                 Report Number 05-07-001-10-105
